                                                               Issue Date
                                                                     March 21, 2007
                                                               Audit Report Number
                                                                     2007-BO-1003




TO:        Robert Paquin, Director, Office of Community Planning and Development,
             Boston Regional Office, 1AD


FROM:
           John A. Dvorak, Regional Inspector General for Audit, 1AGA


SUBJECT: The Office of Community Development, City of Chicopee, Massachusetts, Did
           Not Properly Award and Administer Community Development Block Grant
           and HOME Funds Used for its Housing Activities


                                  HIGHLIGHTS

 What We Audited and Why

             As part of our annual plan, we audited the Office of Community Development,
             City of Chicopee, Massachusetts’ (City) administration of its Community
             Development Block Grant (CDBG) and HOME programs. The objective of the
             audit was to evaluate the City’s administration of its housing rehabilitation
             contracts funded through the CDBG or HOME programs and its oversight and
             monitoring of various for-profit developers (developers) involved in the
             rehabilitation activities. We also evaluated whether $700,000 in HOME set-aside
             funds was committed for an eligible project.


 What We Found


             The City did not adequately administer more than $2.2 million in housing
             rehabilitation contracts funded through its CDBG and HOME programs. It did
             not perform the required independent analysis of cost estimates submitted by
                     developers before awarding rehabilitation contracts, did not always enforce
                     procurement and financial management contract provisions included in written
                     agreements with developers, did not adequately address performance problems on
                     the part of developers identified during reviews performed by it, and approved
                     final payments for unfinished projects. In addition, it approved more than $1.2
                     million in unreasonable and unsupported rehabilitation contract costs 1 , and its use
                     of a $700,000 community housing development organization set-aside (set-aside)
                     from the HOME program was an ineligible use of these funds.


    What We Recommend


                     We recommend that the director of the Office of Community Planning and
                     Development in Boston require the City to establish written policies and
                     procedures for both the HOME and CDBG programs that meet HUD requirements
                     for awarding, administering, and monitoring program funds. We also recommend
                     that the City provide supporting documentation for the $1.2 million in unsupported
                     costs, including establishing the reasonableness of the costs, or repay the funds and
                     be directed not to use set-asides on the ineligible project, which will allow $700,000
                     to be put to better use on other eligible projects.

                     For each recommendation in the body of the report without a management
                     decision, please respond and provide status reports in accordance with HUD
                     Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
                     or directives issued because of the audit.



    Auditee’s Response


                     We provided City officials with a draft audit report on February 23, 2007, and
                     requested a response by March 9, 2007. We held an exit conference with City
                     officials on March 1, 2007 to discuss the draft report, and we received their
                     written comments on March 9, 2007. Although the City took exception to some
                     of the wording used in the report, the City generally agreed with the facts,
                     conclusions, and recommendations for Findings 1 and 2. The City disagreed with
                     Finding 3.

                     The complete text of the auditee’s response, along with our evaluation of that
                     response, can be found in appendix B of this report.




1
    The $1.2 million is part of the overall $2.2 million.


                                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The City Did Not Adequately Award or Administer its Housing      6
      Rehabilitation Contracts in Accordance with Federal Requirements
      Finding 2: The City Approved More Than $1.2 Million in Questionable Costs   12
      for Work Performed under Housing Rehabilitation Contracts Funded with
      CDBG and HOME funds
      Finding 3: The City’s Use of $700,000 in HOME Set-Asides Did Not Meet       16
      Eligibility Requirements

Scope and Methodology                                                             19

Internal Controls                                                                 20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              21
   B. Auditee Comments and OIG’s Evaluation                                       22
   C. Applicable Regulations and Violations                                       29




                                             3
                           BACKGROUND AND OBJECTIVES


The City of Chicopee, Massachusetts, receives annual Community Development Block Grant
(CDBG) program funds on a formula basis from the U.S. Department of Housing and Urban
Development’s (HUD) Office of Community Planning and Development. The CDBG program
is a flexible program that provides communities with resources to address a wide range of unique
community development needs. The City is also a partner in a regional consortium 2 that
receives annual HOME program funds from HUD each year. Under the HOME program, HUD
allocates funds by formula among eligible state and local governments to strengthen public-
private partnerships and to expand the supply of decent, safe, sanitary, and affordable housing,
with primary attention to rental housing, for very low- and low-income families. Participating
jurisdictions may provide assistance in a number of eligible forms, including loans, advances,
equity investments, interest subsidies, and other forms of investment that HUD approves.

The City of Chicopee’s Office of Community Development (City) administered the CDBG and
HOME programs. During our audit period from July 1, 2002, through June 30, 2006, it was
responsible for administering 127 activities/projects funded with more than $10.2 million in
HUD funds. 3 Our audit looked at eight housing-related rehabilitation contracts that the City
awarded and/or administered during the audit period with four developers totaling more than
$2.2 million. Additionally, we looked at its plans to subsidize a $4.4 million, 25-unit
condominium project through a commitment of $700,000 in HOME program set-asides to a
locally established nonprofit agency that had community housing development organization
status. 4

The City awarded its HOME funds for housing rehabilitation contracts either by using word of
mouth or by contacting potential developers directly as part of a problem properties task force.
The City normally did not award housing rehabilitation contracts using CDBG funds, and mainly
used CDBG funds for other community development needs. However, the City used CDBG
funds for three of the rehabilitation contracts we reviewed, committing funding as part of a
request for proposal process used to dispose of three tax-title properties. These tax-title property
transfers were the responsibility of the City’s Office of Treasurer. The director of the City’s
Office of Community Development provided technical assistance to the Office of Treasurer in
developing the request for proposals. The director of the Office of Community Development
also participated in the evaluation and selection of the proposals submitted for these properties,
and authorized the commitment for the use and award of CDBG housing rehabilitation funds for
the properties.



2
  Holyoke/Chicopee/Westfield Consortium.
3
  $9,071,726 for 122 CDBG activities/projects and $1,204,102 for five HOME activities/projects.
4
  “Community housing development organization” means a private nonprofit organization that (1) is organized
under state or local laws; (2) has no part of its net earnings inuring to the benefit of any member, founder,
contributor, or individual; and (3) is neither controlled by, nor under the direction of, individuals or entities seeking
to derive profit or gain from the organization.


                                                            4
We audited the City’s administration of the CDBG and HOME programs. The objective of the
audit was to evaluate the City’s administration of its housing rehabilitation contracts funded
through the CDBG or HOME program and its oversight and monitoring of the for-profit
developers involved in the rehabilitation activities. We also evaluated whether $700,000 in
HOME set-aside funds was committed for an eligible project.

The issues identified in our report deal with administrative and internal control activities that we
feel are necessary to bring to the City’s attention now. Other matters regarding the City’s
management may remain of interest to our office as well as other Federal agencies. Release of
this report does not immunize any individual or entity from future civil, criminal or
administrative liability or claim resulting from future action by the Department of Housing and
Urban Development and or other Federal agencies.




                                                 5
                                        RESULTS OF AUDIT

Finding 1: The City Did Not Adequately Award or Administer Its
Housing Rehabilitation Contracts in Accordance with Federal
Requirements
In awarding contracts for rehabilitation of housing projects, the City did not ensure that all
preaward requirements were met and did not ensure that all administrative contract provisions
were enforced. It also did not perform an independent analysis of cost estimates submitted by
developers before awarding contracts, enforce procurement and financial management contract
provisions (including Davis-Bacon requirements 5 ) included in the written agreements between
the City and developers, or adequately address performance problems on the part of developers
identified during reviews performed by the City; and it approved final payments for unfinished
projects. These deficiencies occurred because of a lack of adequate internal controls, which
included a lack of written policies and procedures for the administration of housing-related
activities funded under the CDBG and HOME programs and a lack of adequate oversight and
monitoring of the developers that received federal funds for rehabilitation activities. As a result,
the City could not assure HUD that $2.2 million in rehabilitation contracts it awarded were
reasonable or the rehabilitation work was necessary.



    The City Did Not Perform
    Analyses of Cost Estimates
    Before Awarding Contacts



                  The City did not perform the required independent analyses of cost estimates
                  submitted by developers before awarding rehabilitation contracts totaling more
                  than $2.2 million. These analyses were required to ensure that the estimates were
                  reasonable and necessary and would have included a verification of proposed cost
                  data, projections of the data, and the evaluation of the specific elements of the
                  costs. Detailed costs for every line item should have been examined for cost
                  reasonableness. Instead, the City relied on the developers to provide cost
                  estimates for more than $2.2 million in rehabilitation work, which it then
                  approved as being reasonable, based on a maximum per-unit subsidy or square
                  footage formula. The proposed work was generally completed by identity-of-
                  interest and/or otherwise affiliated business entities of the developers. The City

5
  42 USC 5219 of the Davis-Bacon Act states that Davis-Bacon wages apply when CDBG funds are used for
rehabilitation of residential property with 8 or more units. Also, the Davis-Bacon wage information must be posted
at the construction site, contractors and subcontractors must pay not less than the prevailing wage rates, and contract
and subcontracts must contain Davis-Bacon provisions. These requirements applied to the rehabilitation of
properties at 714-718 Chicopee Street and 830 Chicopee Street.


                                                           6
                mistakenly believed that this type of “price analysis” of contract costs was
                acceptable. As a result, there are no assurances of reasonableness or necessity for
                the costs. For example,

                     •   As part of three HOME-funded housing rehabilitation contracts, the City
                         approved and paid $14,000 for 217 “window blinds” valued at between
                         $3,255 and $5,425. An analysis of the contract costs should have
                         determined that these costs were not reasonable.

                     •   The City did not obtain written plans and specifications for the
                         rehabilitation of three CDBG-funded housing rehabilitation contracts.
                         Without plans or specifications, the City then approved the estimated costs
                         provided by the developer without performing a cost analysis. Further, for
                         one of the three CDBG contracts, the developer requested a $90,000
                         contract modification, increasing the original contract by 36 percent (from
                         $250,000 to $340,000). The City also failed to perform an analysis of the
                         proposed increase in the contract cost before negotiating the increase to
                         determine whether the cost increase was reasonable and necessary.



    The City Did Not Enforce
    Procurement and Financial
    Management Contact Provisions

                Written agreements between the City and developers contained provisions related
                to procurement, financial management, and Davis-Bacon requirements, as
                required by HUD regulations. However, the City did not always enforce these
                provisions and ensure that they were carried out. For example, the City did not
                ensure that owners maintained separate books and records for HOME- and
                CDBG-funded activities. In one instance, an owner/developer acknowledged that
                he did not keep separate accounting records for his HOME-funded property. In
                another instance, an owner commingled the books and records of three CDBG-
                funded projects. In this instance, even though an identity-of-interest general
                contractor was used, the rehabilitation costs for individual subcontractors were on
                the owner’s books, not the contractor’s. The owner’s records should have shown
                payments to the identity-of-interest general contractor, not to the subcontractors.

                Additionally, the City did not ensure that Davis-Bacon requirements were met for
                rehabilitation work performed on the 714-718 Chicopee Street and 830 Chicopee
                Street projects. Specifically, the City awarded $490,000 6 under contracts for the
                rehabilitation work, but it did not 1) inspect the job sites to ensure that Davis-
                Bacon wage information was posted, 2) perform employee interviews to ensure
                that contractors and subcontractors were paying prevailing wage rates, 3) obtain
6
 Two of the three contracts funded under CDBG were subject to Davis-Bacon. These two projects involved 9 and
15 units. The remaining CDBG-funded contract had six units and was not subject to Davis-Bacon.


                                                      7
            copies of the subcontracts to ensure that Davis-Bacon provisions were included,
            or 4) obtain weekly payroll sheets. Further, the City did not ensure that Davis-
            Bacon provisions were included in the identity-of-interest general contractor’s
            agreement with the owner.


The City Did Not Adequately
Address Performance Problems
When Identified

            The City did not adequately address performance problems identified during its
            own compliance reviews of developers. In one instance, a developer did not
            provide basic project-related documents for three projects, including project plans
            and specifications, construction contracts and subcontracts, and permits and
            contractor licenses. The City requested these and other project-related documents
            from the developer and noted that failure to comply would result in no further
            payments being processed. The developer did not provide the requested
            documentation, but the City made the remaining $384,733 in contract payments.

            During its compliance reviews, the City identified problems associated with
            federal requirements related to contracts and subcontracts involving Minority and
            Women-Owned Business Enterprises, Inc. (MWBE). Although these problems
            were noted, the City did not follow up and enforce compliance with the federal
            requirements. In one instance, a developer stated on an application that one of the
            major minority subcontractors would be Hispanic. The general contractor then
            notified the City that “minority subcontractors and minority and female labor
            were employed extensively” throughout the rehabilitation of the project. When
            the City requested the names and subcontracts for the MWBE contractors used,
            however, the general contractor’s response stated that “MWBE or State Office of
            Minority Business Assistance (SOMBA) contractors were not utilized.” Given
            the disparities between the statements about MWBE and SOMBA contractors, the
            City should have requested an explanation as to why MWBE and SOMBA
            contractors were not used as originally claimed.


 The City Approved Final
 Payments for Four Unfinished
 Projects

            The City approved final retainage payments of $36,556 for four unfinished
            projects. For one CDBG-funded project, the City made the final payment
            although the rehabilitation of commercial space (included as part of the
            rehabilitation contract) had not been completed. In this instance, the City then
            executed a contract modification and provided an additional $90,000 to the owner
            almost four months after the final payment was made. After the additional funds



                                             8
were provided through a contract modification, the City still did not ensure that
the commercial space was completed. An August 1, 2006, Office of Inspector
General (OIG) inspection of the property showed that the commercial space was
still unfinished (see picture below).




               830 Chicopee Street - unfinished commercial space

In another example, the City approved final retainage payments for two CDBG-
funded housing rehabilitation contracts based on final inspections that reported
deficiencies. These deficiencies included a lack of adequate fire blocking in the
furnace closets and the units’ walls and ceilings. On another project, the City
released retainage payments on a HOME-funded rehabilitation contract to an
owner without ensuring that unfinished items (punch list items) were completed.
Our physical inspections as of November 7, 2006, showed that some of these
items were not corrected although the City made the final payment of retainage in
December 2004 (see pictures below).




      25 Pine Street - unfinished corner boards and cleanup


                                 9
                    25 Pine Street - unfinished landscaping and cleanup



Conclusion


             The deficiencies described in this finding occurred because of a lack of adequate
             internal controls, which included a lack of written policies and procedures for the
             administration of housing-related activities funded under the CDBG and HOME
             programs, and a lack of adequate oversight and monitoring of the developers that
             received federal funds for rehabilitation activities. The City needs to implement
             internal controls and develop adequate policies and procedures to ensure that all
             preaward requirements for housing rehabilitation contracts are met and that
             contract provisions are properly enforced. This will significantly improve the
             City’s processes for awarding CDBG- and HOME-funded contracts and its
             monitoring and oversight of developers.

             During our audit, we identified several instances of unsupported and ineligible
             costs that occurred as part of the rehabilitation work performed under the
             contracts referred to in this finding (valued at $2.2 million). These examples of
             unsupported and ineligible costs are discussed further in finding 2, and the
             corresponding questioned costs are identified in appendix A.


Recommendations


             We recommend that the director of the Office of Community Planning and
             Development in Boston require the City to

             1A. Establish written procurement policies and procedures that are consistent
             with HUD regulations.


                                              10
1B. Ensure that sufficient internal controls are established for procurements
involving CDBG and HOME funds.

1C. Provide supporting documentation showing that Davis-Bacon wages were paid
on the applicable CDBG-funded projects.

1D. Establish written policies and procedures to ensure that retainage or final
payments are made only after supporting evidence is obtained, demonstrating that
project work was completed.




                                11
                                       RESULTS OF AUDIT

Finding 2: The City Approved More Than $1.2 Million in Questionable
Costs for Work Performed under Housing Rehabilitation Contracts
Funded with CDBG and HOME funds
The City did not sufficiently review costs charged under housing rehabilitation contracts funded
with CDBG and HOME funds before approving them. It approved 1) more than $1.1 million in
disbursements for unsupported costs associated with these rehabilitation contracts and 2)
$116,706 in unnecessary costs of a developer and an affiliated general contractor. 7 These
deficiencies occurred due to a lack of adequate internal controls, including a lack of written
policies and procedures for the administration of housing-related activities funded under the
CDBG and HOME programs, and inadequate oversight and monitoring of the developers who
received the funds. As a result, the City incurred more than $1.2 million in questioned or
unnecessary costs using funds that are now unavailable for other community development needs.
In addition, the City cannot demonstrate that the extent of work performed was necessary or that
all contract costs were appropriate.



The City Approved More Than
$1.1 Million in Unsupported
Disbursements

                  The City disbursed more than $1.1 million in CDBG and HOME funds for
                  rehabilitation contract work without adequate support. For instance, the City
                  could not support the use of $730,000 in CDBG funds awarded to one developer
                  for three housing rehabilitation projects. Specifically, the City did not develop its
                  own work write-ups and cost estimates or obtain project specifications when
                  awarding the contracts. It relied on the developer’s cost estimates and approved
                  contract disbursements without comparing budgeted amounts to actual
                  expenditures. Also, the City did not require or obtain the bank drawdown
                  requests to ensure that CDBG funds did not pay for the same items as the bank
                  funds, although bank loans were a substantial project funding source for the three
                  CDBG rehabilitation contracts. In addition to the above, the City did not
                  adequately review the supporting documentation submitted with the contract
                  drawdown requests. We found invoices that were improperly charged to another
                  of the owner’s identity-of-interest companies, instead of the identity-of-interest
                  general contractor. In another example, invoices showed materials shipped to the
                  identity-of-interest company(s) address and not the addresses of the CDBG-
                  funded projects. In these instances, the City should have requested further
7
 The general contractor was the management agent for several of the developer’s properties. They shared common
office space, physical location, and mailing address; and one employee (bookkeeper) worked for both companies.
The general contractor also received other the contractor’s bids for these projects before his award for this work .


                                                         12
         clarification and documentation regarding the drawdown requests and shipping
         address.

         The City also disbursed $375,960 in HOME funds without adequate support to
         two different developers using identity-of-interest general contractor businesses
         for the rehabilitation contract work. Although OIG site inspections showed that
         work was generally complete, the developers were unable to produce adequate
         documentation to support the costs. In addition, payments to these two
         developers were based on nondescriptive invoices from their identity-of-interest
         general contractor businesses. For instance, one developer was allowed to draw
         down $285,000 in HOME funds for rehabilitation work at the 71 Montgomery
         Street project by providing an invoice between identity-of-interest entities
         (owner/developer and identity-of-interest general contractor) and not third-party
         invoices. The invoice was accompanied by copies of uncashed checks to
         represent payments made on the invoice. In a second instance, the City paid
         $90,960 based on identity-of-interest invoices from another developer for the
         HOME-funded rehabilitation project at 25 Pine Street without source
         documentation. Given the identity-of-interest nature of these transactions, the
         City should have required the developers to submit source documentation with
         each payment request and/or performed on-site monitoring to verify the actual
         costs.


Unnecessary HOME Costs of
$116,706 Were Approved by the
City


         The City approved $236,204 in unnecessary costs added to the estimate of an
         affiliated general contractor for two projects involving one developer. Of the total
         $236,204 variance, $114,402 was paid with HOME funds, and the remaining was
         paid with state funds. The internal cost estimate documents of the developer and
         affiliated general contractor showed costs for rehabilitation work totaling
         $889,796 for the two projects. However, the cost breakdown provided to the City
         by the developer and the general contractor showed a cost breakout and invoices
         for these costs totaling $1,126,000 for the rehabilitation work; a difference of
         $236,204 (see table).
                       Invoices/      Internal      Difference     Excess costs   Excess costs
                       cost           estimate of   between        charged to     charged to the
                       breakout       affiliated    estimate and   the HOME       state housing
  Property address     submitted to   general       cost           program        rehabilitation
                       the City       contractor    breakout                      program
  14-16 Charles        $698,000       $558,000      $140,000       $70,000        $70,000
  Street
  90 Cochran Street    $428,000       $331,796      $96,204        $44,402        $51,802
  Totals               $1,126,000     $889,796      $236,204       $114,402       $121,802


                                          13
             Although site inspection reports showed that work was completed, the general
             contractor was unable to produce accounting or bank records to show actual
             project costs. A letter from the general contractor, sent in response to our request
             for this information, stated that an “estimate” was provided for the project and
             that a “contract was signed for that amount” (the bid amount).

             The City also approved disbursements of $2,304 from HOME funds and $4,896
             from state funds to a developer for unnecessary costs of computer design and 3-D
             modeling consulting services for a building located at 25 Pine Street. The
             developer purchased these services several months after an engineering contractor
             it had hired completed the drawings and floor plans for the rehabilitation of the
             building located at 25 Pine Street.



Conclusion


             The deficiencies described in this finding occurred because of a lack of adequate
             internal controls, including a lack of written policies and procedures for the
             administration of housing-related activities funded under the CDBG and HOME
             programs, and inadequate oversight and monitoring of the developers who
             received the funds. The City needs to implement internal controls and written
             policies and procedures to ensure that CDBG and HOME funds are disbursed for
             contract costs that are deemed reasonable and necessary and are adequately
             supported. Without adequate support of costs for these housing rehabilitation
             contracts, the City cannot demonstrate that the extent of work performed was
             necessary or that all contract costs were adequately justified and supported for
             more than $1.1 million in expended HOME program funds.


Recommendations

             We recommend that the director of the Office of Community Planning and
             Development in Boston require the City to

             2A. Establish written policies and procedures for both the HOME and CDBG
             programs to ensure that funds are disbursed for reasonable and necessary contract
             costs and that related costs are adequately supported.

             2B. Provide supporting documentation for the $730,000 in unsupported costs,
             including the establishment of the reasonableness of costs and, if support cannot be
             obtained, repay the funds to the CDBG program.




                                              14
2C. Provide supporting documentation for the $375,960 in unsupported costs,
including the establishment of the reasonableness of costs and, if support cannot be
obtained, repay the funds to the HOME program.

2D. Repay the $116,706 in unnecessary costs to the HOME program.




                                 15
                                     RESULTS OF AUDIT

Finding 3: The City’s Use of $700,000 in HOME Set-Asides Did Not
Meet Eligibility Requirements
The City’s use of $700,000 in community housing development organization (CHDO) HOME
program set-asides (set-asides) on a 25-unit condominium project was an ineligible use of funds.
The use of the set-aside funds, in this instance, did not meet the HUD requirements that project
housing be owned, developed, or sponsored by a CHDO. The ineligible use of funds occurred
because the City did not properly interpret the regulations regarding set-aside eligibility
requirements for CHDOs. As a result, the $700,000 in congressionally mandated set-asides was
unavailable for use on eligible CHDO-owned, developed, or sponsored housing projects.



    Set-Aside Funds Were Not Used
    Properly

                 The City subsidized a $4.4 million, 25-unit condominium project by awarding
                 $700,000 in set-asides to a locally established nonprofit agency with CHDO
                 status. 8 This CHDO had a joint venture agreement with the project’s for-profit
                 owner. 9 While this agreement permits the CHDO to sell 5 of the 25 units to
                 qualified HOME program applicants, the project, as structured, did not meet the
                 provisions of the regulations, which require that the housing be owned,
                 developed, or sponsored by a CHDO. Further, the CHDO did not have effective
                 project control (i.e., no decision-making authority) of the project in this instance.
                 Federal regulations provide that when these conditions do not exist, the CHDO is
                 operating as a subrecipient, and set-aside funds may not be used.



The Final Project Was Different
Than Originally Planned

                 According to the City and the CHDO, the original project involved plans to use
                 property on which the City was in the process of foreclosing for outstanding
                 taxes. In the original project, the CHDO planned to develop five units of
                 affordable housing on this property. However, the owner of the property sold it
                 before foreclosure to two investors, and after the sale, the CHDO and investors
                 were unable to reach agreement on a sales price for the CHDO to buy the
                 property. The investors, who had expended approximately $110,000 in costs for

8
  Of the $700,000, $250,000 is under contract. Draft loan documents provided on January 10, 2007, show an
increase to $700,000.
9
  The ownership entity has an identity-of-interest relationship with the project developer entity.


                                                      16
                  acquisitions and payment of back taxes, were asking $300,000 for the property.
                  The $300,000 asking price rendered the original CHDO project financially
                  unfeasible. However, the CHDO did acquire the property. According to CHDO
                  officials, they contacted the owner of an adjacent property and were able to
                  negotiate a $155,000 sales price with the investors for the property on the
                  CHDO’s behalf. However, the housing project was changed from a five-unit
                  eligible CHDO project 10 into a 25-unit condominium project that would be owned
                  and developed by the owner (for-profit entity) of the adjacent property, not the
                  CHDO.

                  In its interpretation of the regulations governing CHDO set-asides, the City
                  believed that the CHDO only needed to be a “partner in the development” and
                  that a joint venture agreement would satisfy the set-aside requirements. The City
                  also believed that the project was eligible under the sponsorship category and that
                  it was “sponsoring” the CHDO, which was a nonprofit agency. We disagree with
                  the City’s understanding of what qualifies as “sponsored.” The “sponsorship”
                  eligibility category cannot apply in this instance since sponsorship involves a
                  project in which the CHDO “sponsors” a for-profit, rather than the City’s
                  sponsoring another nonprofit entity. The City has also indicated that it believed
                  that the CHDO had a valid legal title to the property. 11 However, our review of
                  the City’s land/property records shows that the for-profit entity solely holds legal
                  title to the property. In August 2005, the property was deeded to the CHDO;
                  however, in July 2006, the property was conveyed from the CHDO to the for-
                  profit entity.

                  Of the $700,000, $165,934 was expended for acquisition of the property and other
                  costs. According to plans, the remaining funds were be used by the City to
                  purchase the five units at market value upon completion of the project.



     Conclusion


                  The ineligible use of funds occurred because the City did not properly interpret
                  the regulations regarding set-aside eligibility requirements. The project, as
                  structured, does not meet HUD regulations, which require that the project housing
                  be owned, developed, or sponsored by a CHDO. The for-profit entity holds legal
                  title to the property. In addition, the for-profit entity is the developer for this
                  project, not the CHDO. Therefore, the use of the $700,000 does not meet HUD
                  requirements for such use.



11
 The purchase and sales for this property were between the investors and the for-profit entity, not the CHDO. At a
May 24, 2005, meeting, the CHDO was described as a “funding mechanism,” and it was indicated that that the
CHDO would acquire the property and then reconvey it to the for-profit entity .


                                                       17
Recommendations


          We recommend that the director of the Office of Community Planning and
          Development in Boston direct the City to

          3A. Reclaim the $165,934 provided to the CHDO for the project and discontinue
          the planned use of the remaining $534,066 on the project.

          3B. Ensure that the $534,066 in HOME set-asides is used on eligible projects in
          accordance with HUD regulations.




                                          18
                         SCOPE AND METHODOLOGY

To achieve our audit objectives, we reviewed program requirements, including

   •   Federal laws, regulations, HUD guidebooks, and notices for the CDBG and HOME
       programs;
   •   Office of Management and Budget circulars;
   •   The Federal Acquisition Regulation; and
   •   Massachusetts general laws over procurement.

We also obtained an understanding of the City’s policies and procedures over rehabilitation
activities through interviews with City officials from the Office of Community Development,
Purchasing Department, Auditing Department, Office of Treasurer, and Building Department
and staff from the Chicopee Housing Authority Office of Inspections.

Using information contained in HUD’s Integrated Disbursements and Information System, we
identified that during our audit period of July 1, 2002, through June 30, 2006, there were 127
activities funded with $10,275,828 in Office of Community Planning and Development funds.
From our universe we selected a sample to examine 100 percent of the CDBG activities funded
under the housing and economic development categories, except for the housing rehabilitation
administration activity, totaling $83,229. We also examined four of the five housing
rehabilitation projects funded during our audit period, but we did not examine the Elder HOME
Safe Program. We also expanded our universe scope to include an activity funded outside of our
scope because it was the first of three projects funded to the same developer for which
deficiencies were identified.

The proposed Paine Avenue set-aside project ($700,000) was selected due to the investment
amount and because our audit disclosed deficiencies with three other CDBG-funded housing
rehabilitation contracts with which the developer was involved. We examined project records
and supporting documentation maintained by the Office of Community Development and
available records of the for-profit developers and the public records available at the Office of the
Secretary of State and Hampden County Registry of Deeds and through Lexis/Nexis.

We performed on-site inspections of the rehabilitation properties to evaluate whether the
rehabilitation contracts were completed in a workman-like manner. We interviewed the
developers to gain an understanding of the contract award and administration process.

Our fieldwork was performed between June and December 2006. We conducted the majority of
our fieldwork at the City’s Office of Community Development, located at 36 Center Street in
Chicopee, Massachusetts. Our audit covered the period July 1, 2002, through June 30, 2006, but
was expanded to include other periods when necessary. We performed our audit in accordance
with generally accepted government auditing standards.




                                                 19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                  •   Controls over procurement of CDBG and HOME funds when using for-
                      profit entities.
                  •   Controls over the disbursement monitoring of CDBG and HOME housing
                      rehabilitation activities.
                  •   Controls over ensuring eligibility of set-aside projects.


              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

                  •   Controls over the procurement of CDBG and HOME funds when using for-
                      profit entities (see finding 1).
                  •   Controls over the disbursement monitoring of CDBG and HOME housing
                      rehabilitation activities involving for-profit entities (see finding 2.
                  •   Controls over ensuring eligibility of set-aside projects (see finding 3.




                                               20
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation          Ineligible 1/   Unsupported     Unreasonable or      Funds to be put
        number                                    2/      unnecessary 3/       to better use 4/
             2B                              $730,000
             2C                              $375,960
             2D                                                 $116,706
             3A             $165,934
             3B                                                                     $534,066
          Totals            $165,945       $1,105,960           $116,706            $534,066


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.

4/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this case, the OIG recommendation will result in $700,000 in costs not
     being incurred for this ineligible project.




                                            21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         22
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2

Comment 3


Comment 4

Comment 5


Comment 6



Comment 7




                         23
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 8


Comment 9


Comment 10



Comment 11




                         24
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 12




                         25
                         OIG Evaluation of Auditee Comments

Comment 1   The format used for the Springfield 2003 Audit report was revised effective
            March 16, 2005. However, we have revised the title to remove the reference of
            $2.2 million.

Comment 2   During the audit, the City had plans to use the $700,000 referred to in the finding.
            This amount is supported by draft loan documents. This amount includes
            $165,934 in ineligible costs and $534,066 in the cost category of “funds put to
            better use.” Funds put to better use includes estimates of amounts that could be
            used more efficiently if an OIG recommendation is implemented. In this case, the
            implementation of the OIG recommendation will result in $700,000 in costs not
            being incurred for this ineligible project. As a clarification, a footnote has been
            added in Finding 3 (page 16) to note that $250,000 (of the $700,000) is already
            under contract and that draft loan documents as of January 10, 2007 show an
            increase to $700,000.

Comment 3   The report (page 2) has been changed to reflect the actual dates for the exit
            conference and response date.

Comment 4   During the exit conference, we agreed to consider the proposed changes to the
            report. As detailed in Comments 1 and 2 above, we have made revisions as
            appropriate.

Comment 5   We revised (page 4) the reference to the City Treasurer’s request for proposal
            process.

Comment 6   The City did not provide any documents to support the claim that $64 (per
            window) for blinds was reasonable, or that the costs for two of the projects had
            been reviewed by the Massachusetts Department of Housing and Community
            Development. Our inspection of the projects showed that the window blinds were
            of a basic type that could probably be purchased (and installed) at a much lower
            cost. As a basis of comparison, we noted that documents in another developer’s
            files showed the price range for basic window blinds as $6.00 to $12.00.

            Also, documents from the general contractor showed that while the blinds were
            included as a line item in the general construction contract, it was the owner who
            was responsible for them, not the general contractor. The count of 160 windows
            as referenced was taken from the project specifications; we have revised the
            report (page 7) to include the actual count of 217 windows as stated by the City.

Comment 7   No change was made to the report (page 8) because the commercial spaces were
            included in the rehabilitation contract under Article One – Scope of Services as
            follows: “The BORROWER shall utilize CDBG funds for the following




                                             26
            purpose(s): Substantial rehabilitation of the building at 830 Chicopee Street to
            include the following activities:
                • Rehabilitation of the existing ground floor retail space; and
                • Rehabilitation of eleven (11) residential units on the first, second and third
                   floors; and
                • Rental of six (6) residential units to low and moderate income households
                   for the initial rent-up of the project as defined by HUD regulations for the
                   CDBG program.”

Comment 8   Based on the inspection of the projects, it is questionable whether the City should
            have made the final retainage payments regardless of its own local policy (page
            8). The nature of retainage, as defined by various sources, includes “The amount
            of money withheld by an owner as security until the contractor completes a job.”
            Without retention of this final amount, the City does not have the leverage to
            ensure the contractor completes the project or the funds to complete it themselves.
            We note that the agreement stipulates that retainage is released upon substantial
            completion. However, under the City policy, a project can be substantially
            complete but does not meet HQS. According to the inspectors of the project, they
            make the determination whether the property meets HQS when the work is
            substantially complete. After this point, there is still a “punch list” of work items
            to be completed including those to meet HQS (such as adding fire blocking), and
            OCD should hold the retainage until this remaining work is complete. Generally,
            at 30 days after inspection, the inspector returns to check that the “punch list”
            items are completed, and the retainage is then released. In this case, the retainage
            was paid in December 2004, and the work was still not complete as of November
            2006.

            Our inspection of the project showed that the work on the interior common areas
            and the exterior work were not completed in a workman-like manner. We
            observed that the new concrete floor in the basement was cracked and that the
            laundry room was not finished. Some of the sheetrock was taped and joint
            compound was applied but not painted, and the interior hallways did not appear to
            have been renovated. We found that the retaining wall caps on one side of the
            building were not glued down and some of the caps had fallen off the retaining
            blocks, posing a potential hazard. The corners of the building were not yet
            finished, there was a large hole in the ground in front of the building, and the
            landscaping had not been finished. The foundation on the exterior of the building
            had several gaps on the sides and back of the building that were filled with
            insulation instead of mortar, providing a poor appearance to the building.

Comment 9   The City did not identify the rehabilitation work that needed to be completed or
            develop a cost estimate for this work (page 12). Instead, the City relied on the
            contractor to provide an estimate without determining whether the estimate was
            reasonable and approved disbursements without adequate support for the funds
            disbursed. The necessity of work (costs) should be demonstrated by a work write-
            up/estimate of the rehabilitation work. “Before and after” pictures would be in


                                             27
              addition to a work write-up/estimate, and does not demonstrate the need for the
              work or support the disbursement of funds. Also, Inspections by the Chicopee
              Housing Authority (CHA) showed that work was done, but did not address
              whether the work was necessary or whether the costs were reasonable. The CHA
              generally is not involved with the project until after it has been started, and the
              CHA receives the request from the OCD to inspect the work in order to make a
              payment to the owner/developer. The CHA will examine the project plans and
              specifications, if available, when it performs the inspections to ensure the planned
              work was completed accordingly.

Comment 10 The City did not provide any documents to support the claim that the project costs
           had been reviewed by the Massachusetts Department of Housing and Community
           Development, or that the software in question was required for the second
           application. As stated in the finding (page 14), the City paid for $2,304 (from
           HOME funds) for unnecessary costs of computer design and 3-D modeling
           software. This payment was made after the engineer had already billed the owner
           for the work he performed, including the drawings and floor plans for the
           renovation at 25 Pine Street.

Comment 11 We acknowledge that the City will take steps to implement the recommendation
           identified in the report.


Comment 12 The project in question is not owned by the CHDO, and as structured, does not
           meet the any provisions of the regulations that require that the housing be owned,
           developed, or sponsored by a CHDO (page 16). The application for funding was
           submitted by the for-profit entity. The purchase and sales agreement for the
           parcel of land was between the investors and the for-profit entity. Documents
           from a May 24, 2005 meeting describe a plan that “[CHDO] is not on title, but is
           a funding mechanism. [CHDO] acquire property, does demo and environmental
           and then re-conveys back to [for profit]. The agreement between the City and the
           CHDO for the $250,000 is dated May 25, 2005, one day after the May 24, 2005
           meeting. The property was, in fact, deeded to the CHDO on August 25, 2005, and
           the deed was later transferred from the CHDO to the for-profit entity (d/b/a
           Hamel Estates LLC) on July 13, 2006. According to the Massachusetts Secretary
           of State Records, Hamel Estates LLC is controlled entirely by the for-profit owner
           (and family members) and does not identify the CHDO as any principle of Hamel
           Estates LLC.

              The transfer of the property deed in August 2005, and again in July 2006, is
              precisely the same process as described in the document of the May 24, 2005
              meeting. Lastly, the for-profit developer for this project has stated that his plan is
              to wait until the end of the rehabilitation work, and then sell the 5 units to the City
              for market value.




                                                28
Appendix C

          APPLICABLE REGULATIONS AND VIOLATIONS


24 CFR [Code of Federal Regulations]        Did not perform the required independent
85.36(d)(4)(ii), Procurement                cost analysis of cost estimates submitted by
                                            for-profit developers before awarding these
Federal Acquisition Regulation Part 31      rehabilitation contracts.
OMB [Office of Management and               Approved $236,204 in unreasonable
Budget] Circular A-87-Cost Principles       contractor costs between a for-profit
for State, Local, and Indian Tribal Sound   developer and an affiliated business entity
Management Practices                        acting as the general contractor.

24 CFR 92.505, Applicability of Uniform
Administrative Requirements

Federal Acquisition Regulation Part 31
OMB Circular A-87-Cost Principles for       Approved more than $1.1 million in
State, Local, and Indian Tribal Sound       disbursements for unsupported rehabilitation
Management Practices                        costs.

24 CFR 570.506(h), Records to Be
Maintained

24 CFR 92.505, Applicability of Uniform
Administrative Requirements
24 CFR 92.504, Participating Jurisdiction   Did not enforce procurement and financial
Responsibilities; Written Agreements;       management contract provisions included in
On-Site Inspections                         the written agreements between the City and
                                            the for-profit developers.

                                            Did not adequately address performance
                                            problems identified during its own reviews of
                                            the for-profit developers.
24 CFR 570.501(b), Responsibility for       Did not enforce procurement and financial
Grant Administration                        management contract provisions included in
                                            the written agreements between the City and
24 CFR 570.603, Labor Standards             the for-profit developers, including Davis-
                                            Bacon requirements as required by federal
                                            regulations

                                            Did not adequately address performance
                                            problems identified during its own reviews of


                                               29
                                        the for-profit developers.
OMB Circular A-87-Cost Principles for   Approved retainage for four unfinished
State, Local, and Indian Tribal Sound   projects.
Management Practices
24 CFR 92.300, Set-Aside for            The City committed $700,000 in HOME
Community Housing Development           program set-asides for an ineligible project.
Organizations (CHDOs)

Office of Community Planning and
Development Notice CPD-97-11-
Guidance on Community Housing
Development Organizations




                                           30
